(> ~
 "SI:RVICts




.J-              DEPARTMENT OF HEALTH & HUMAN SERVICES                                          Office of Inspector General


                                                                                                Region IX
                                                                                                Office of Audit Services
                                                                                                90 - yth Street, Suite 3-650
                 MAY 07                                                                         San Francisco, CA 94103




              Report Number: A-09-09-00058

              Mr. Doug Boysen
              Vice President and General Counsel
              Good Samaritan Regional Medical Center
              3600 NW Samaritan Dr
              Corvallis, Oregon 97330

              Dear Mr. Boysen:

              Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
              General (DIG), final report entitled "Review of Oxaliplatin Billing at Good Samaritan Regional
              Medical Center for Calendar Years 2004 and 2005." We will forward a copy of this report to the
              HHS action official noted on the following page for review and any action deemed necessary.

              The HHS action official will make final determination as to actions taken on all matters reported.
              We request that you respond to this official within 30 days from the date of this letter. Your
              response should present any comments or additional information that you believe may have a
              bearing on the final determination.

              Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, DIG reports generally are made
              available to the public to the extent that information in the report is not subject to exemptions in
              the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

              If you have any questions or comments about this report, please call Tom Lin, Senior Auditor, at
              (415) 437-8374 or Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to
              report number A-09-09-00058 in all correspondence.

                                                             Sincerely,


                                                       ~C0~.~
                                                             Lori A. Ahlstrand
                                                             Regional Inspector General
                                                              for Audit Services


              Enclosure
Page 2 - Mr. Doug Boysen


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




         REVIEW OF
   OXALIPLATIN BILLING AT
      GOOD SAMARITAN
  REGIONAL MEDICAL CENTER
    FOR CALENDAR YEARS
       2004 AND 2005




                    Daniel R. Levinson
                     Inspector General

                        May 2009
                      A-09-09-00058
                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. Medicare uses an outpatient prospective payment system to pay for hospital outpatient
services.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

Good Samaritan Regional Medical Center (Good Samaritan) is a hospital located in Corvallis,
Oregon. We reviewed payments to Good Samaritan for oxaliplatin provided to Medicare
beneficiaries during calendar years (CY) 2004 and 2005.

OBJECTIVE

Our objective was to determine whether Good Samaritan billed Medicare for oxaliplatin in
accordance with Medicare requirements.

SUMMARY OF FINDING

During CYs 2004 and 2005, Good Samaritan did not bill Medicare in accordance with Medicare
requirements for the six oxaliplatin outpatient claims that we reviewed. Good Samaritan billed
Medicare for an incorrect number of service units for those claims and received overpayments
totaling approximately $167,139. The overpayments occurred because the hospital did not
have controls in place to ensure the proper billing of oxaliplatin.

RECOMMENDATIONS

We recommend that Good Samaritan:

   .,   work with the fiscal intermediary to adjust the claims and refund approximately $167,139
        in identified overpayments and

   .,   ensure that service units of drugs billed correspond to units of drugs administered.

GOOD SAMARITAN COMMENTS

In its comments on our draft report, Good Samaritan agreed with the finding and provided
information on actions taken to implement the recommendations. Good Samaritan's comments
are included in their entirety as the Appendix.
                           TABLE OF CONTENTS



INTRODUCTION                                     1

    BACKGROUND                                   1
        Outpatient Prospective Payment System    1
        Oxaliplatin                              1
        Good Samaritan Regional Medical Center   1

    OBJECTIVE, SCOPE, AND METHODOLOGY            1
         Objective                               1
         Scope                                   1
         Methodology                             2

FINDING AND RECOMMENDATIONS                      2

    MEDICARE REQUIREMENTS                        2

    INCORRECT NUMBER OF SERVICE UNITS BILLED     3

    RECOMMENDATIONS                              3

    GOOD SAMARITAN COMMENTS                      3

APPENDIX

    GOOD SAMARITAN COMMENTS




                                      11
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS applies to
services furnished on or after August 1, 2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

Good Samaritan Regional Medical Center

Good Samaritan Regional Medical Center (Good Samaritan) is a hospital located in Corvallis,
Oregon. Good Samaritan's Medicare claims are processed and paid by Noridian Administrative
Services, the fiscal intermediary.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Good Samaritan billed Medicare for oxaliplatin in
accordance with Medicare requirements.

Scope

We identified and reviewed six claims for which Good Samaritan billed HCPCS code C9205 for
more than 100 service units of oxaliplatin and received Medicare payments totaling $174,322 for
oxaliplatin furnished to hospital outpatients during calendar years (CY) 2004 and 2005.

We limited our review of Good Samaritan's internal controls to those applicable to billing for
oxaliplatin services because our objective did not require an understanding of all internal



                                                1
controls over the submission of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from CMS's National Claims History file
for CYs 2004 and 2005, but we did not assess the completeness of the file.

We performed our audit from December 2008 through April 2009.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations, and guidance;

    •   used CMS's National Claims History file for CYs 2004 and 2005 to identify Medicare
        claims for which Good Samaritan billed at least 100 service units of oxaliplatin under
        HCPCS code C9205 and received Medicare payments for those units;

   •    contacted Good Samaritan to determine whether the identified oxaliplatin services were
        billed correctly and, if not, why the services were billed incorrectly;

   •    obtained and reviewed records from Good Samaritan that supported the identified claims;
        and

   •    calculated overpayments using corrected payment information processed by Noridian
        Administrative Services for five claims and ambulatory payment classification groups
        payment information for one claim.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

During CYs 2004 and 2005, Good Samaritan did not bill Medicare in accordance with Medicare
requirements for the six oxaliplatin outpatient claims that we reviewed. Good Samaritan billed
Medicare for an incorrect number of service units for those claims and received overpayments
totaling approximately $167,139. The overpayments occurred because the hospital did not
have controls in place to ensure the proper billing of oxaliplatin.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS's "Medicare Claims
Processing Manual," Pub. No. 100-04, chapter 4, section 20.4, states: "The definition of service
units ... is the number of times the service or procedure being reported was performed." In


                                                2
addition, chapter 1, section 80.3.2.2, of this manual states: "In order to be processed correctly
and promptly, a bill must be completed accurately."

Through CMS Transmittal A-03-051, Change Request 2771, dated June 13,2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code C9205
effective July 1,2003. The description for HCPCS code C9205 is "injection, oxaliplatin, per
5 [milligrams]." Therefore, for each 5 milligrams of oxaliplatin administered to a patient,
outpatient hospitals should have billed Medicare for one service unit during our audit period.

Effective January 1,2006, CMS instructed hospitals to bill Medicare for oxaliplatin using
HCPCS code J9263. The service unit for that code is 0.5 milligrams.

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CYs 2004 and 2005, Good Samaritan billed Medicare for an incorrect number of service
units for the six oxaliplatin outpatient claims that we reviewed. For five claims, Good Samaritan
billed 340 service units for 170 milligrams of oxaliplatin administered instead of the appropriate
34 service units. For one claim, Good Samaritan billed 400 service units for 150 milligrams of
oxaliplatin administered instead of the appropriate 30 service units. Medicare required billing
one service unit for each 5 milligrams of oxaliplatin administered. For the six claims, Good
Samaritan received overpayments totaling approximately $167,139. 1

The overpayments occurred because the hospital did not have controls in place to ensure the
proper billing of oxaliplatin.

RECOMMENDATIONS

We recommend that Good Samaritan:

    •    work with the fiscal intermediary to adjust the claims and refund approximately $167,139
         in identified overpayments and

    •    ensure that service units of drugs billed correspond to units of drugs administered.

GOOD SAMARITAN COMMENTS

In its comments on our draft report, Good Samaritan agreed with the finding and provided
information on actions taken to implement the recommendations. Good Samaritan's comments
are included in their entirety as the Appendix.




IFor one of the selected claims, Good Samaritan also billed 184 service units for 840 milligrams of Avastin
administered instead of the appropriate 84 service units. The resulting overpayment of $6,0 11 was included in the
overpayments totaling approximately $167,139.


                                                         3
APPENDIX
                                                                                                                                APPENDIX




                                                                         3600 NW Samaritan Drive      COlvalli,. on 97330   www.samhealtll.org

  Buildill.'! healthier communities together




April 29, 2009

Via Overnight Deliverv

Lori A. Ahlstrand
Regionallnspector General for Audit Services
Office of Inspector General, Office of Audit Services
90 - i h Street, Suite 3-650
San Francisco, California 94103

Re:      Good Samaritan Regional Medical Center
         Oxaliplatin Billing Inquiry
         Report Number A-09-09-00058

Dear Ms. Ahlstrand:

This letter is submitted in response to the draft report entitled "Review of Oxaliplatin Billing at
Good Samaritan Regional Medical Center for Calendar Years 2004 and 2005" issued by the
Office ofInspector General ("OIG") to Good Samaritan Regional Medical Center ("Hospital").

We have reviewed the draft report and agree with the OlG's findings. Hospital has submitted
corrected claims to its Fiscal Intermediary, Noridian Administrative Services ("Noridian"), and
has already fully refunded the identified overpayments to Noridian.

Hospital is committed to conducting its business in compliance with Medicare rules. Since the
time of these errors in 2004 and 2005, Hospital has purchased sophisticated billing software that
assists with identifying these types of errors. Further, over the last few years Hospital has made
substantial efTorts in expanding the scope and depth of its compliance program, including adding
compliance staiT, providing compliance education, and conducting audits by both internal staff
and extemal consultants.

We appreciatc the opportunity to review the OIG draft report. If you have any questions
regarding our response, please contact me at 541-768-4478.

Sincerely yours,




Doug i'lo'vsell*
Vice President & General Counsel

• Admitted to practice law in Oregon. as house counsel for Samaritan Health Services, and Wisconsin

S:\Legal\OIG\Oxaliplatin\OlG - Response to Report - vO l.DOC
